App. 1

j

Case: 19-1945

Document: 45-1

Page: 1

Date Filed: 02/07/2020

UNITED STATES COURT OF APPEALS
THIRD CIRCUIT
Lynn Z. Smith
294A Malvern Court East
Lakewood, New Jersey 08701
In re:

LYNN Z. SMITH,
Civil Action No.
On Appeal from: 3-18-cv-14955
Chapter 13 - Case #17-34862 (MBK)
Court of Appeals Docket #19-1945

MOTION FOR PERMISSION
Motion Requesting Permission to File An Overlength
Supplemental Petition for Rehearing and to Attach
Additional Exhibits to the Supplement
Lynn Z. Smith, the plaintiff submits this motion requesting permission to file the cited
documents in support of my Petition for Rehearing En Banc.
Party

Counsel

Chapter 7 Trustee

N.J. Attorney General

Andrea Dobin
Trenk DiPasquale, P.C.
427 Riverview Plaza
Trenton, NJ 08611

Isabella Stempler, Esquire
Office of the Attorney General
P.O. Box 080
Trenton, N.J. 08625

DATED: February 7, 2020

Case: 19-1945

Document: 45-1

Page: 2

Date Filed: 02/07/2020

Lynn Z. Smith
294A Malvern Court East
Lakewood, New Jersey 08701
(732)363-4451
lzsmith@optonline.net

February 7, 2020
Justices of the Third Circuit
U.S. Court of Appeals Third Circuit
21400 U.S. Courthouse
601 Market Street
Philadelphia, PA 19106

Re: MOTION AND REVISED LETTER INTRODUCING EXHIBITS
Dear Justices,
I respectfully request permission to file an Overlength Supplemental Petition for Rehearing
and to attach additional exhibits to the Supplement.
I filed a Letter to the Court Introducing Exhibits with Exhibit 1 attached on February 3, 2020,
and Exhibits 2-6 later the same day.
I am filing a caption page for the Overlength Supplemental Petition, with this letter next, then
the February 3rd letter which introduced Exhibit 1.1 have modified Exhibit 1 which was put together
in haste due to the crash of my main computer. Typos are corrected and the document reads more
pointedly. It ends with in-text insertions of evidence that prove beyond a shadow Of a doubt that:
Attorney General Rabner; and
State officials acting under him
filed a suit on October 11, 2006, that, not only should never have been filed. Several individuals
facing criminal charges for bank fraud used their powerful law firm to “convince” Attorney
General Rabner, 14-days into office,-to file a civil complaint against Digital Gasman innocent
public company, my husband and me on short notice after my husband exposed their bank fraud
on September 29, 2006.
The criminals wanted my husband to free up 3+ million shares of restricted stock in
Digital Gas to bail them out of a fraudulent loan. They went to Community State Bank, bribedra
loan officer with $100,000 and obtained $600,000 or more in cash from the bank.
2

Case: 19-1945

Document: 45-1

Page: 3

Date Filed: 02/07/2020

My husband acted lawfully by denying the bank’s request to free up the shares by the end
of their fiscal year, September 30,2020. In turn, he suggested to the bank officers that they report
the criminals to the Comptroller of the Currency. On that day, the criminals were told by the
bank that I would not help them.
The criminals then took their retribution by going to the daughter of Ace Greenberg and
having her contact the Attorney General of New Jersey and provide him with the narrati ve that
Digital Gas had no assets, my husband defrauded investors in the company and that I “unjustly
enriched” myself with the $809,237 invested in Digital Gas by Alfred Kryspin.
The purpose ofproviding this evidence to this Court at this point is not to ‘‘relitigate ’’ a
state court final judgment but to demonstrate why the State ofNew Jersey was deathly afraid of
the request contained within the August 8, 2018 Motion to Show Cause that theyfill out theforms
provided in the motion in order that I would have a document that demonstrated that the
$809,237 claim of the State of New Jersey was false and needed to be reduced to protect my
estate.
The Trustee Handbook permits this access when there is evidence that this crime may
have been committed:
2.

TYPES OF CRIMINAL CONDUCT
The most common bankruptcy crimes are set forth in A§ 152 of title 18. Section 152
makes it a crime for any individual to f'knowingly and fraudulently": 1) conceal property
of the estate; 2) make a false oath or account in relation to a bankruptcy case; 3)jmake
Ja false declaration, certification, verification or statement in relation to a bankruptcy
case; 4) make a false proof of claim; 5) receive a material amount of property from the
debtor with intent to defeat the Bankruptcy Code; 6) give, offer, receive or attempt to
obtain money, property, reward or advantage for acting or forbearing to act in a
bankruptcy case; 7) transfer or conceal property with the intent to defeat the
Bankruptcy Code; 8) conceal, destroy, mutilate or falsify documents relating to the
debtor's property or affairs; or 9) withhold documents related to the debtor's property
or financial affairs from a trustee or other officer of the court.

The State of New Jersey certainly had a Final Judgment against me for $809,237. They
were assured that it would never get overturned on appeal because the person who withheld
exculpatory evidence from October 2006 through June 2007 was Stuart Rabner who became the
Chief Justice of the New Jersey Supreme Court. However....
The State of New Jersey does not have a victim, does not have a name, address, amount
invested in Digital Gas and date to substantiate the claim. There is no victim, except for my
children and me who have had to suffer for the last 14-years because Stuart Rabner, afraid of the
negative publicity adversely affecting his nomination to the Chief Justice position by Governor
3

Case: 19-1945

Document: 45-1

Page: 4

Date Filed: 02/07/2020

Jon Corzine of MF Global infamy, was not man enough, and not honorable enough to admit his
error when the evidence was delivered to his office in January 2007.
Andrea Dobin violated her Trustee Handbook and federal law in order to be able to steal
my home in a corrupt auction:
3.

COMPLIANCE WITH THE TRUSTEE'S DUTY TO REPORT CRIMINAL CONDUCT
Section 3057 of title 18 of the United States Code requires the trustee to report suspected
violations of federal criminal law to the appropriate United States Attorney. Section 586 of title
28 imposes a similar duty on the United States Trustee to refer any matter that may constitute
a violation of criminal law to the United States Attorney and, upon request, to assist the United
States Attorney in prosecuting the matter.
It is important that the chapter 7 trustee and the United States Trustee coordinate their efforts
in the criminal referral process. Upon determining that there are
reasonable grounds to believe that a crime has been committed, the trustee is required to refer
the matter to the United States Attorney.

August 8,2018 Motion
This motion and its supplements were an objection filed prior to the sale of my home and
any distribution by Andrea Dobin. The motion specifically requested an additional document
from the State of New Jersey. This was all the State of New Jersey had to supply:
$809,237 of Digital Gas Private Placements
Received by Lynn Smith
Name
Address

Date
Amount

With this motion and my reply to the state, the amount of the state’s claim became a contested
matter, not the Final Judgment in state court. By the time I filed this motion, I knew that I 1) had a
vengeful trustee because I exposed her perjury and her numerous failures to act in concert with the
Trustee Handbook and the intent of Congress, 2) Judge Kaplan who knew of her misconduct but did not
care, and 3) Judge Thompson who was incapacitated and corrupt - but I filed it with the hope this court
would read the evidence and realize that not only was my motion and request within the law but that the
trustee and judges were deliberately acting against the law and the intent of Congress regarding
allegations of a debtor that a claim against her estate was false and needed to be significantly lowered in this case to ZERO.
4

Case: 19-1945

Document: 45-1

Page: 5

Date Filed: 02/07/2020

As I suspected, Judge Kaplan was horrified by the simplicity of the motion. He moved to
complicate it. It became a Motion to Compel Discovery. Following Judge Kaplan’s lead, the state
responded that I was attempting to relitigate a state case and change a Final Judgment in state court.
The rest is history. The Trustee followed suit. My home was sold weeks later.
The intent of Congress and the applicable federal law required that the State of New Jersey bear
the burden of establishing that their claim was not false by a preponderance of the evidence. I made it
very easy for them: fill out the 5-lines above.
This Court has been defrauded by:
Andrea Dobin
Michael B. Kaplan
Anne E. Thompson, and
The Office of the Attorney General of the State of New Jersey
The state filed a false claim to fraudulently conceal its criminal behavior during the 20062009 time period and it defrauded of state and federal courts during the ten-year period these
interrelated matters have been on appeal by knowingly submitting claims they knew to be false.
Proof of Criminal Violations by The Office of the Attorney General
This document, including Exhibits 1-6, proves without a shadow of a doubt that my children
and I have been raped by business criminals, law firm criminals, regulatory criminals, a criminal
trustee, and judicial criminals. The judges of the Third Circuit may not like the tone of my calling
Kaplan and Thompson criminals, but why have federal laws regarding “aiding and abetting”
criminal activity if you exclude members of your own class?
As you are aware, I have given all of the above the opportunity to reverse what they have
done, even the State of New Jersey. All refused.
Exhibit 1 now provides prima facie evidence, mostly from federal courts, the FBI and the
United States Attorney that the person the DAG relied on for their allegation that I “unjustly
enriched” myself with $809,237 of Alfred Kryspin’s money was a criminal who, along with a
fellow criminal paid a bank officer of the Community State Bank in Ankeny, Iowa $100,000 to
approve a fraudulent loan using worthless stock.
5
i

Case: 19-1945

Document: 45-1

Page: 6

Date Filed: 02/07/2020

Ron Reckinger owned 50% of Fairway Energy and Barry Levinson the other 50%.
The trial testimony of the DAG identified Ron Reckinger as the person who supplied the
evidence that the state used to file their false $809,237 claim.
A letter from a partner in Greenberg Traurig identified Barry Levinson and his ex­
girlfriend Jacqueline Greenberg Vogt, Ace Greenberg’s daughter and partner of the firm, as the
individuals who urged Attorney General Stuart Rabner to file a complaint against Digital Gas,
my husband and me.
The FBI and the United States Attorney implicates both men, through their ownership of
Fairway Energy, as the persons who paid $100,000 to the bank officer.
A Second Chance for This Court
Dobin, Kaplan, and Thompson had this evidence and disregarded it. The judges of this
court let lower court clerks read other compelling information about these criminals and the
failure of the trustee and judges to properly administrate my petition and subsequent appeals,
perhaps not thinking that the trustee and judges had misconducted themselves, and signed a
December 17, 2017 order and an opinion that has been debunked in a 100-page rebuttal.
Now Exhibit 1 is loaded with additional evidence that the case against me should never
have been filed since it was only filed because my husband failed to free up for trading 3+ million
shares.
Unfortunately, federal courts do not move on their own orders to reverse state court Final
Judgments when they see a Manifest Injustice has taken place, as in my case. That is why I filed
my August 8, 2018 Motion and the Reply to the state that Judge Kaplan concealed for almost a
month.
I do not want to litigate or overturn the Final Judgment in C-316-06.1 want this Court to
do one of several things that will open the doors of justice:
1.
2.

Remand the matters currently before it against the state and the trustee to the Chief
Judge of the District Court;
An order that I will be permitted 90-days from the date of the order to retain a forensic
attomey/accountant to investigate and report on the following:
- The administration of my bankruptcy petition by Judge Kaplan
- The administration of my estate by Trustee Andrea Dobin, and
6

Case: 19-1945

Document: 45-1

Page: 7

Date Filed: 02/07/2020

The administration of my appeals by Judge Thompson
Stay Chapter 13 - Case #17-34862 (MBK) until the District Court makes a report on
the findings;
Order the Office of the Attorney General to either confirm the investment of
$809,237 in Digital Gas by Alfred Kryspin or drop their claim by one week from
this Court’s order. If they refuse or otherwise fail to do either within that time
period, order with prejudice that an immediate preliminary award of $5 million
in damages be paid to me by the Office of the Attorney General with prejudice
(or recommend to the District Court to do the same);
Order the immediate return of my home;
-

An order that Judge Kaplan recuse himself from my petition;
An order that Andrea Dobin be removed as the panel trustee in my petition;
An order that my petition be reconverted to Chapter 11 and that have the full
support of the new judge and trustee in pursuing adversary proceedings against
the State of New Jersey and others

Closing Statement
I am sorry that this Court had to be burdened by the illegal hacking of my communications
accounts and systems. Since I am still working from a slow and old rental, my earlier filings were
not typo corrected. I have fixed that with this document.
I would appreciate it if the Court considers my initial filing (41), Exhibits 2-6 (43) and
this filing with Exhibit 1.
The USCOA Should Resist the Temptation
The impact of respecting the law and more than sufficient evidence that I made a legal
request for additional documents further to an objection to an alleged false claim might appear
daunting to the members of this Court but justice, why you are here, should be first in the mind
of each judge.
The criminality of the Attorney General of New Jersey from 2006-2009 and the
criminality of their asserting an $809,237 claim could possibly lead to their being held—responsible for the return of $617+ million in cash and $5+ Billion in natural resource assets:----- 7

Case: 19-1945

Document: 45-1

Page: 8

Date Filed: 02/07/2020

That is what should happen.
Instead, I have been fair and reasonable until now.
My husband and I have made offers to all official parties except the state to return my
home and compensate me for the damage done to my children, me and my estate.
My husband and I have made offers to the State of New Jersey that were lenient because
victims of 2006-2009 are dying and the 201 families could use relief. The basis of my husband’s
thinking is they pay part upfront and the rest could be made easier.
First, my husband asked them to pay $50 million to preliminarily compensate all 201
families. The offer further indicated that they could recover this money by joining Digital Gas in
a lawsuit and receiving 50% of the next $100 million awarded in a suit seeking $1 - 2.5 Billion
from the criminals they aided and abetted and their attorneys, Greenberg Traurig. l
They ignored that offer so my husband will now seek $ 100 million upfront. It will increase
over time. The defendants can be sued since they extended the statute of limitations year by year.
This Court can rectify a past mistake, a mistake that can be attributable to the Office of
the Attorney General of New Jersey by their filing of a known false claim in my 2011 bankruptcy
and again in my 2017 petition.
The calculus deployed by the judges of this Court in the weighing of consequences for
the misconduct of a trustee, two judges or the State of New Jersey should be quite simple since
you now know my August 8, 2018 motion and my reply to the state (Docket 41, page 5-7 in my
initial petition filing) that was not docketed for a month - would have been granted by any
unconflicted bankruptcy judge or trustee.
Exhibit 1 details the misconduct of the trustee and judges and Exhibits 2-5 provide further
evidence of their ongoing misconduct, but, most importantly, it provides to the members of this
Court the same exculpatory evidence that the $809,237 claim if false and needs to be reduced to
ZERO - the utter destruction of the state’s argument that the person who supplied them with the
information that I “unjustly enriched” myself with Alfred Kryspin’s $809,237 investment in
Digital Gas was himself a criminal who misled the State of New Jersey. Although misled by

l

Greenberg Traurig not only knew their clients were facing criminal charges in Iowa, but also
assisted them in the period after 2006 with legal advice as they went after the assets of Digital
Gas, one after another, as my husband was attempting to defend 201 families victimized by fraud
and criminality.
8

Case: 19-1945

Document: 45-1

Page: 9

Date Filed: 02/07/2020

Reckinger, the DAG is guilty of forgery because he changed the name on the evidence submitted
to Chancery Court from an entirely different company that Kryspin invested around $450,000 in
to “Digital Gas” to fit the narrative that Digital Gas needed to be “shut down” - the words of
Attorney General Stuart Rabner.
In support of the above statement, I end this letter with a complaint letter:
Reckinger and Levinson Cited As Criminals to Rabner in January 2007
After my husband terminated his relationship with Levinson and Reckinger after they
asked him to divert the ownership of a quarry to Jamaica (Rumeal Robinson), they attempted to
disrupt shareholders to strip away Digital Gas assets. The state and Attorney General Stuart
Rabner had this complaint to the Controller of the Currency in 2007 but ignored it. Judge Kaplan
ignored it, the trustee ignored it. Judge Kaplan does not want the aftermath of exposing the
criminality on his hands and Andrea Dobin is in the business of stripping families away from
innocent homeowners to her money laundering network based in Lakewood, New Jersey.
As a resul t of Attorney general Rabner and his staff ignoring this, Rumeal Robinson was
not indicted by the United States Attorney until the fall of 2009.
More people were raped by the criminals in these three years.
The bank covered it up because they did not want to get fined for the $100,000 bribe their
officer took from Reckinger and Levinson.
Chief Justice Rabner wanted to stay Chief Justice and retire in 2026.
My husband intends to expose him publicly by the national election in 2020 and, anyone
who aided and abetted him over the last 14-years.
What Rabner and the DAG had in January 2007

9

Case: 19-1945

Document: 45-1

Page: 10

Date Filed: 02/07/2020

COMPLAINT
Office of the Comptroller of the Currency
1301 McKinney Street
Houston, TX 77010-9050
(713J-336-4301 (Fax)
BY:

Brian Smith
409 St. Clair Avenue
Spring Lake, New Jersey 07762

732 927-0185
732 782-0204
springlake@optonlme.net
AGAINST:
Mr. Mark Degner
Ms. Karen Andeweg
Board of D irectors
Community State Bank
817 North Ankeny Avenue
Ankeny, Iowa 50021
COMPLAINT
The complaint can be evidenced by the letter that was sent to Mark Degner which was ignored
and what is written below.
In essence, Mark Degner and Karen Andeweg approved a loan that no federal bank in the US
would have approved which is to give substantial loan to value against restricted shares of a
small publicly and thinly traded Pink Sheet listed company.
In addition to whatever banking regulations that may have been violated, the above persons
failed to do the normal and indicated due diligence on:
• the persons applying for the loan;
• subordinates involved;
• alleged personal relationship the borrowers or associates may have had with officials at
the bank;
• whether the shares were stolen from or cancelled by the issuer;
• whether the issuing company placed additional restrictions on the use of the shares for
loan or hypothecation; and
• the veracity of the statements made on the loan application.
i

10

Case: 19-1945

Document: 45-1

Page: 11

Date Filed: 02/07/2020

In addition to there allegedly being a false or misleading loan application made and a
compromise of the fiduciary responsibility of a banking officer, the borrowers may have
informed someone at the bank prior to the granting of the loan that they were using the proceeds
of the loan to in part aid and abet the circumvention of the equity and commercial rights of
hundreds of shareholders of the public company.
It is believed that a banking officer was fired in connection with this loan.
Ms. Andeweg contacted me in August 2006 and was told that the borrowers had defrauded the
public company. Despite being informed of this, Ms. Andeweg failed to contact the Office of the
Controller of the Currency, the local prosecutor and/or the Attorney General of the State of Iowa
to begin a formal investigation of Fairway Energy, Barry Levinson, S. Thomas Throne and their
associates Ron Reckinger and Rumeal Robinson who may have been responsible for “setting up”
the loan at the bank.
Damning in our opinion is that Ms. Andeweg was less interested in following up our advice to
investigate this obviously tainted and fraudulent loan, then she was in making sure that those
alleged to have committed fraud against the public company and the bank received further illgotten benefit from the use of the restricted shares by continuing to insist that the shares be freed
up for trading.
Absolutely damning of Ms. Andeweg in our opinion is that, despite the fact that she was aware
that the borrowers had effectively abandoned the loan at the time she contacted us (this was
admitted by Frank Grenard, lawyer for the bank), she appears to have aided and abetted these
persons by acting on the borrower’s advice that the public company had somehow defrauded
them. This was evidenced in an email by Ms. Andeweg which either described the public
company as either criminal or fraudulent. This occurred despite the fact that Ms. Andeweg was
advised that the borrowers had attempted to steal assets, options and opportunities from the
public company.
In addition to not acting to investigate our claims regarding the loan being fraudulent, which
should have immediately halted her requesting on behalf of Mr. Degner, the Board of Directors
and the Community State Bank to free up the restricted shares, Ms. Andeweg brought in Frank
Grenard of Whitfield & Eddy, PLC to further cover up the various frauds and compel us to free
up the restricted shares. In the course of our communication with the bank, as represented by
Whitfield & Eddy, PLC, threats were made that the bank would attempt to free up the restricted
shares on their own, as opposed to working with us to protect both the shareholders of the bank
and the shareholders of the public company.
In the end, whether through Ms. Andeweg, Whitfield & Eddy PLC or through Mr. Degner and
the Board of Directors of the Community State Bank, the bank may have purposefully and
maliciously acted against the interests of the innocent shareholders of the public company by
filing a complaint against the public company for not freeing up the shares and leaving the bank
with a bad loan.
2

Case: 19-1945

Document: 45-1

Page: 12

Date Filed: 02/07/2020

It appears as if the bank wanted this matter swept under the rug by the end of the third quarter,
September 30th. We informed the bank that we would be interested in buying the note and
prosecuting the borrowers on our own. We indicated that we could possibly pay then $650,000 in
October through a bridge loan we expected pursuant to a senior financing the small public
company had successfully negotiated.
Whitfield & Eddy would have nothing to do with a delay beyond September 30th and cut off
effective and responsible communication. We believe this urgency by the bank was in order to
avoid reporting the matter and our charges to the applicable state or federal banking, law
enforcement or other regulatory authorities, be they the Office of the Controller of the Currency,
the local prosecutor and/or the Attorney General of the State of Iowa. It appears as if they wanted
to avoid reporting or publicly disclosing that the Board of Directors of the Community State
Bank either did not have the proper checks and balances of their officers or supervisors in place
and/or that a banking official within Community State Bank may have committed a felony in
connection with this loan.
I personally alerted Mr. Mark Degner of these matters on January 17, 2007 and he never
responded. I doubt if he has referred this matter to the applicable State or federal banking, law
enforcement or other regulatory authorities, hence, I am filing this complaint.
The simple questions to be asked here, which should have been asked by Mr. Mark Degner, Ms.
Karen Andeweg and the Board of Directors of the Community State Bank, are the following :
“How does:
• Barry Levinson of Boca Raton, Florida
• S. Thomas Throne of Sheridan, Wyoming
• Ron Reckinger of Lakewood, New Jersey (formerly of Michigan); and
• Rumeal Robinson of Miami, Florida (formerly of Michigan)
all find themselves at 817 N. Ankeny Blvd. in Ankeny, Iowa?
Does Community State Bank advertise that it grants “high LTV” loans on restricted shares of
Pink Sheet stocks?
Did Mr. Wegner of Ms. Andeweg or someone on the Board of Directors know and vouch for the
borrowers?
Was there someone fired in connection with this?
If so, when?
If so, did he (or she) know any of these people from Michigan, New Jersey, Florida and was
there remuneration of some kind for granting the loan?

3

Case: 19-1945

Document: 45-1

Page: 13

Date Filed: 02/07/2020

If so, why was this loan not thoroughly investigated, including calling the small public company
to check to see if the restricted shares were not stolen, cancelled or prohibited for the use of loans
at federal banks?
If so, why were the applicable state or federal banking, law enforcement or other regulatory
authorities not contacted at some point?
The persons borrowing against the restricted shares were all involved in a conspiracy to defraud
the shareholders of the public company.
Several of the persons were either an officer & director of the public company, consultants to the
public company and a lawyer charged with protecting and furthering the interests of the
shareholders of the public company.
If none of the above was mentioned on the loan application, they committed bank fraud. It
further illustrates the mistake the bank made by not calling the public company in connection
with this loan. The only calls they made was to free up shares despite being advised that these
people had committed fraud against the bank and the public company.
Several of the persons and proxies working for them filed complaints against the public company
at the prosecutor’s office in Monmouth County New Jersey. They complained that the public
company was a scam, had no assets and the stock was worthless.
If none of the above was mentioned on the loan application, they committed bank fraud. It
further illustrates the mistake the bank made by not calling the public company in connection
with this loan. The only calls they made was to free up shares despite being advised that these
people had committed fraud against the bank and the public company.
IN ESSENCE, LESS THEN THREE MONTHS BEFORE THE COMMUNITY STATE BANK
GRANTED THIS LOAN, THE BORROWERS CLAIMED TO LAW ENFORCEMENT IN
NEW JERSEY THAT THE SMALL PUBLIC COMPANY WAS A SCAM AND ITS STOCK
WORTHLESS.
THE ABOVE DID NOT STOP THEM FROM, BASICALLY, “ROBBING THE BANK”.
The prosecutor’s office did nothing after the initial complaints in August of 2005. The reason
being was that the public company provided them with evidence that investors were being used
by these people to destroy or weaken the public company so they could go after assets, options
and opportunities controlled by the public company in the US and Canada. Any time an investor
asked for the return of their cash and/or shares, the public company cooperated with investors
and regulators. These people attempted to destroy the public company for greed and, in a further
cynical and criminal act of greed, they either compromised someone at this bank OR this bank is
the friendliest bank this side of the Mississippi.

4

Case: 19-1945

Document: 45-1

Page: 14

Date Filed: 02/07/2020

I would like to believe the former. However, the bank has never given us reason to trust them.
Mr. Degner never responded to our formal request for information and help this past January.
Ms. Andeweg seemed like a cheerleader for these bank robbers.
The law firm representing the Board of Directors wrote this gloating email to our lawyer after we
honestly and sincerely attempted to extricate the shareholders of the bank from financial loss due
to this fraudulent loan.

------ Original Message-----From: FRANK M. GRENARD [mailto:grenard@whitfieldlaw.com]
Sent: Wednesday, October 18, 2006 6:50 AM
To: Davidson, Roger V. (Denv)
Cc: FRANK M. GRENARD
Subject: RE: Digital Gas
Roger,
Does the attached mean that the $400mm funding for Digital Gas Is on
hold?
NOTICE: This E-mail (including attachments) is covered by the
Electronic Communications Privacy Act, 18 U.S.C. §§ 2510-2521, is
confidential and may contain attorney-client materials and/or
attorney work product, legally privileged and protected from
disclosure. This e-mail is intended only for the addressee named
above. If you are not the intended recipient, you are hereby
notified that any retention, dissemination, distribution, or
copying of this communication is strictly prohibited. Please
reply to the sender that you have received the message in error,
Thank you.
then delete it and any and all copies of it.
Frank M. Grenard
Whitfield & Eddy, PLC
317 6th Ave., 12th Fl.
Des Moines, Iowa 50309
grenard@whitfieldlaw.com
(515) 246-5582
[mobil] (515) 240-0251
[fax] (515) 246-1474

5

Case: 19-1945

Document: 45-1

Page: 15

Date Filed: 02/07/2020

The above leads us to believe that the bank somehow feels that we are responsible for their
$850,000 loss. Wanting to clear up the issue is one reason why I am filing this complaint. The
other reason is that I have to act to protect the shareholders of the public company. It is obvious
that the borrowers who victimized the bank also victimized the small public company. I want to
make sure that the facts are known by the applicable state or federal banking, law enforcement or
other regulatory authorities and that the bank, if it filed a complaint against the small public
company, retracts it and issues a public apology for the complaint and for not contacting us prior
to the granting of the loan.
We had nothing to do with defrauding this federal bank. If they called in November of 2006, we
would have advised them not to grant the loan based on that collateral. None of this would ever
happen and the false claims, lies and/misleading statements or general innuendo to regulators in
New Jersey that we may have somehow defrauded a federal bank may not have been used as a
pre-text to finally move against the public company which has resulted in pain, suffering and
financial loss to innocent investors across the country, internationally and even in Iowa,
There is no doubt in our mind that, in an attempt to compel us to free up these restricted shares,
Levinson et al once again contacted the prosecutor in New Jersey in the late summer of 2006
(after we rejected the bank’s request to help them).
There is reason to believe that the bank may have aided and abetted these people in some manner
or at some level, perhaps thinking that we would be pressured to free up the restricted shares. We
have evidence suggesting this and that a claim that we had defrauded this federal bank, as
opposed to the borrowers, may have been filed officially by the bank or mentioned in an
interview with investigators.
Hopefully, this clears the matter of the fraudulent bank loan up.
Hopefully, the applicable state or federal banking, law enforcement or other regulatory
authorities will move against Levinson, Throne, Reckinger, Robinson and the others who have
shown how deceitful they were against the small public company from 2004 through the present
by the way they defrauded the bank.
The sad thing was that LevinsOn and Throne were brought in to augment the management of the
public company.
The only thing they managed was to defraud the company and then the bank with the restricted
shares they had told prosecutors and regulators were worthless before, during and after the
granting of the loan.
The use of the loan proceeds should be investigated for additional criminal activity. For example:

6

Case: 19-1945

•

Document: 45-1

Page: 16

Date Filed: 02/07/2020

the restocking of a prescription drug (bootleg VIAGRA) that Mr. Reckinger laces with
CHOCOLATE and sells to minors, seniors and others in New Jersey and elsewhere.
NOTE: The illegal drug is packaged under the name BOOM and has been widely
distributed in Lakewood and Brick, Monmouth County. It has been reported that Mr.
Reckinger may have fled Monmouth County and may currently reside in Miami with Mr.
Robinson referenced above. BOOM may now be sold in Miami or Southern Florida.

* Distribution of funds to Mr. Ed Presley in contravention of the Wyoming Bankruptcy
Court
• Distribution of funds to Mr. Throne in contravention of the Wyoming Bankruptcy Court
• Use of a significant portion of the funds for a condominium for Mr. Levinson’s girl friend
in Boca Raton
If none of the above was mentioned on the loan application, they committed bank fraud.
I have nothing against the Community State Bank other than what I outlined before. I wanted
their help, asked for it and they ignored me or obstructed us in our attempt to bring these people
to justice in August 2006. Instead, the shareholders of the public company, who I tried to protect
from these people, have been damaged.
Please help, as we have received word that they are still attempting to steal assets, options and
opportunities of the public company.
Thank you.

C£>A f

So, not only were Reckinger and Levinson criminals, the Officers and Directors of
Community State Bank concealed this letter because they wanted to avoid prosecution and fines
for harboring their officer who approved up to $1.5 million in loans after pocketing $100,000
from Reckinger and Levinson - who deployed Greenberg Traurig to provide a false narrative to
the Attorney General of the State of New Jersey so they could whitewash their criminal use of
worthless shares in Digital Gas to obtain fraudulent loans.
Rabner knew this but wanted to be Chief Judge
16

Case: 19-1945

Document: 45-1

Page: 17

Date Filed: 02/07/2020

Kaplan knew this but 1) wanted to teach me a lesson for filing a Chapter 13 on the day
he ordered my house sold at the Sheriff’s Office, and 2) did not want to be known as the judge
who permitted the Smiths to hold the corrupt regulatory-judicial nexus in New Jersey to be held
responsible for aiding and abetting criminal acts and fraudulent concealment of a false $809,237
claim from the Bankruptcy, District Court and USCOA, Third Circuit.
Dobin knew but did not want to renege on a promise to deliver my home to her network
in Lakewood, New Jersey. So she held a fraudulent auction, failed to adhere to her Trustee
Handbook and violated numerous federal laws by failing to report well-evidenced allegations of
criminal behavior to her superiors and the U.S. Attorney - and for participating in a money­
laundering scheme with her network of foreclosure and bankruptcy fraudsters and criminals.
Thompson knew but her job was to rubberstamp Kaplan’s orders/.
Now the judges of this Court know that this is not simply a legal dispute over RookerFeldman.
All the evidence you had, Kaplan and Dobin had and based on the evidence fraud, they
had the basis to ask, then order the State of New Jersey to name Alfred Kryspin as my
“victim”, then attempt to answer the problem posed in the trial court record when Kryspin
admitted under oath that he had NEVER HEARD OF DIGITAL GAS until 18-months after he
invested in an entirely different company.
This petition is an acid test of the Third Circuit’s integrity.
Sincerely,

Lynn Smith
DATED: January 22, 2019

17

Case: 19-1945

Document: 45-1

Page: 18

Date Filed: 02/07/2020

February 3,2020 Letter

Lyon Smith
Mnlrem Court Hart
Latn»twd,New Jersey OSTOI
^»2>363MrtSt'.
bBgnfchgceiti3ditg.ngt

Febniary 3., 2010
HJ.3..Coum of Appeals Mid Circuit
214QQ US. Courthouse
SOI'Martel Street
PhiladcIpMa, PA 1MGS
JRc: Letter to the Court IntroJndM ErhShhi
DcarJudg.cs ofthc Court;
I still have faith m this Court: and am wTitingthisto provide die unimpeachable evidence
Shat rapt only

the 3309,237 claim based on the word of a criminal writ the associated

documents altered by the D AG - Sum, a crime lias been committed againsi my (family by the Officeof tire Attorney General apart from the Final Judgment and apart from the false and. fraudulent
claim — diai contmues to Ins easiuiiittcd by the. Attorney General and die respective DAG’s year
after yean
The Eshihfis provide this Court with not just the nssson to grant flsis petition hut to
summarily gramaKora sitpufie&iil pariorihe requested rctief.
lie cod of Exhibit: I ends with-a closing 1 hope th£ Clerfc of ihc* Court reads and
uaudersttifids, pasUcutarly with reject to Exhibit 6.
1 do not Stave access tn my computer.. records needed and functionality to produce more
than this letter and exhibits,
I respectfully requcsi that thc inilirc Cauit at feOst revaewthis EictLeramS Exhibits l4Kot
jusi formy appeal. hut far 20.1 famil ies and otheis in Chancery CoutL Fnrocfosun? and Bankruptcy
Coons.

18

Case: 19-1945

Document: 45-1

Page: 19

Date Filed: 02/07/2020

Whni ,ia coctfljred in ibis tens' was known by the Attorney General prior so the
cocnavijCJicQnoiJt o f tl>c trial in,C^3!'frOfi and lias been frmKbikiitlyiD?lncca,l«3 lor 14-years.
Judge Kaplan knows the trutlL
Ajkbca Ddbin knows the truth.
DAO Sfctnplcr knows the truth.
The current Attorney General knows the imffliL
M embers 6f Shis Court know the truth.
t want .my childrenVbctWe back.
I 'want the trustee and judge resnofeed and I want BanknqjiCy and: District Court support
-far adversary hearings.
Mv finuly has been anKcari^ damaged find this Court is Jetting mirupi banks,
rcgriiaioei, trustees. find judges sing the Rooker-Fddnwi Doctrine shamelessly In tom! djsregBref
far federal Jaw andCoogrcsssmal intent

Sincerely,
■“7

r*jv%
Vf,

*-*

Sv«*(k_

•, t

Lyrnt Smith
DATED: February 3,2020

19

Case: 19-1945

Document: 45-1

Page: 20

Exhibit 1
Revised

20

Date Filed: 02/07/2020

Case: 19-1945

Document: 45-1

Page: 21

Date Filed: 02/07/2020

Kaplan Docket Fraud #1
(August 8, 2018 Motion)
Judge Kaplan Renames a Show Cause Motion:
“Motion to Compel Discovery”
To Create the Impression That I Wanted to Relitigate a State Case

Kaplan Docket Fraud #2
(September 8,2018 Reply to State)
Judge Kaplan Receives My Reply to State on September 8th
• • • But Refuses to Docket It Until Almost A Month Later
To Conceal the Fact That the August 8th Motion Was About Reducing A False State
Claim
Not About Relitigating a Final Judgment in State Court

Andrea BoMn Lowers Value of Estate for Network
Contact
Trustee Delivers My Home to Her Accomplice Eli Haltovsky for $970,000 Instead of
Accepting My Plan That Would Have Provided $1.75 million.
One serious question:
What About Alfred Kryspin, the man the state, judge and trustee claim I “unjustly
enriched myself’ with his investment of $809,237 in Digital Gas?
How will my victim get paid?
HE WON’T... THERE IS NO VICTIM.
AIDING AND ABETTING THE ATTORNEY GENERAL’S 14-YEAR
FRAUDULENT CONCEALMENT OF THEIR MISCONDUCT AND CRIMINAL
ACTS DURING THE 2006-2009 PERIOD IS NOT A “JUDICIAL ACT”.
JUDGE KAPLAN AND ANDREA DOBIN MADE FOOLS OF THE FEDERAL
COURT SYSTEM AND A MOCKERY OF THE INTENT OF THE CONGRESS
OF THE UNITED STATES OF AMERICA.
21

Case: 19-1945

Document: 45-1

Page: 22

Date Filed: 02/07/2020

Kaplan Docket Fraud #1 - The Evidence
The August 8,2018 Motion That I Filed:
Case 17-34862-MBK

Doc 219

Filed 08/08/18 Entered 08/09/18 09:45:04
Document Page 1 of 21

«

Desc Main

RUED

UNITED STATES BANKRUPTCY COURT
DISTRICT OF NEW JERSEY

46WNE A NAUGHTON, CLERK

Lynn Smith
409 St. Clair Avenue
Spring Lake, New Jersey 07762
lzsmith@optonline.net
(848) 469-8485
SS# 7061

BY,

AUG 0 8 2018

“HBBT

In Re:

Chapter 13

Lynn Smith

Case Number: No. 17-34862
Debtor

Judge Michael B . Kaplan
Re: Emergent Motion

Emergent Motion for State of New Jersey to Show Cause
• • • and

Judge Kaplan’s Fraudulent Misrepresentation on the Docket to Create A
False Narrative hat I Wanted to Relitigate A Final Judgment In State Court:
08/08/2018 O Motion to Compel
219 Filed:
Entered:
08/09/2018
Terminated: 10/03/2018
Full docket text for document 219:

EMERGENT Motion to Compel DISCOVERY Filed by Lynn Z
Smith. Hearing scheduled for 9/10/2018 at 10:00 AM at MBK Courtroom 8, Trenton. (Attachments: # l Certificate of Service)
(kmf)TEXT Modified on 8/9/2018 (kmf).

22

Case: 19-1945

Document: 45-1

Page: 23

Date Filed: 02/07/2020

Following Kaplan’s Lead...The State Uses a Rooker-Feldman Argument to
Avoid the Intent of Congress that Debtors May Question False or Excessive
Claims Against Their Estates:
Case 17-34862-MBK

Doc 252

Filed 08/29/18 Entered 08/29/18 10:17:22
Document
Page 3 of 13

Desc Main

August 29, 2018
Page 3
Debtor's avenues to appeal the Final Judgment have closed
years ago. Accordingly, the Bureau respectfully requests that
Debtor's motion be denied.
Respectfully submitted.
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY
By; /s/Isabella T. Stempler
Isabella T. Stempler (IS9485)
Deputy Attorney General
....... But the Purpose of the August 8th Motion Was to Ask Judge Kaplan to
Make Sure that the $809,237 Claim Against My Estate Was Not False or
Excessive. Our Belief Was Then and Now Is That the State’s Is False and They
Have Concealed This Fact For 14-Years. They Violated This:
851. FALSE CLAIMS—18 U.S.C. 3
Subsection (4) of Section 152 sets out the offense of filing a false bankruptcy claim. A
"claim" is a document filed in a bankruptcy proceeding by a creditor of the debtor. It is
sometimes also called a "proof of claim." For the purposes of this section the nature of
the claim is immaterial— i.e., the claim can be secured or unsecured, liquidated or
unliquidated, disputed or undisputed. A "false" claim is one that is known by the creditor
to be factually untrue at the time the claim is filed.
Subsection (4) provides:
A person who...knowingly and fraudulently presents any false claim for proof against the
estate of a debtor, or uses any such claim in any case under title 11, in a personal capaci ty
or as or through an agent, proxy, or attorney;...shall be fined..., imprisoned..., or both.
23

Case: 19-1945

Document: 45-1

Page: 24

Date Filed: 02/07/2020

The elements of a false claim violation are:
1. that bankruptcy proceedings had been commenced;
2. that defendant presented or caused to be presented a proof of claim in the
bankruptcy;
3. that the proof of claim was false as to a material matter; and
4. that the defendant knew the proof of claim was false and acted knowingly and
fraudulently.
United States v. Overmyer, 867 F.2d 937,949 (6th Cir.), cert denied, 493 U.S. 813
(1989).
It was not an “error” on Judge Kaplan’s or Trustee Dobin’s part. They both chose to aid
and abet the criminality and fraudulent concealment of the State of New Jersey by their
non-judicial acts.
In this example, Judge Kaplan responded to a legally justified motion by committing
Docket Fraud - to create the impression I was asking for something that the state and the
trustee could object to by citing the Rooker-Feldman Doctrine.

24

Case: 19-1945

Document: 45-1

Page: 25

Date Filed: 02/07/2020

Kaplan Docket Fraud #2 - Evidence
My Quick Reply to the State’s Objection To This Motion Led Judge Kaplan
to Commit Docket Fraud #2 As Judge Kaplan Concealed Our Reply for
Almost One Month. This Is the First 8-Pages of a 129-Page Documented
Rebuttal:
Case 17-34862-MBK

Doc 284 Filed 09/07/18 Entered 10/01/1810:49:36
Document
Page 1 of 129

UNITED STATES BANKRUPTCY COURT
DISTRICT OF NEW JERSEY

Desc Main

>®ANNE A. NAUCWTON, CLERK

SEP 07 2018

Lynn Smith
409 St Clair Avenue
Spring Lake, New Jersey 07762
l7.smith@ontonlinc.net
(848)469-8485
SS# 7061

U.S. BANKRUPTCY COURT
BY 'I
mm

In Re:

Chapter 13

Lynn Smith

Case Number: No. 17-34862
Judge Michael B. Kaplan

Debtor

Re: Reply Brief

Reply Brief to State of New Jersey Opposition
To August 8,2018 Motion Regarding
Nature and Validity of Its Claim of $809,000
Hie parties to the order and the names, addresses, and telephone numbers of their
respective attorneys are as follows:
Counsel

Attorney General

Carol L. Knowlton, Esquire
Gorski & Knowlton
311 Whitehorse Avenue
Hamilton, N.J. 08610

Gurbir S. Grewal
Office of the Attorney General
25 Market Street
Trenton, NJ 08625-0080

Chanter 7 Trustee

NJ. Attorney General

Andrea Dobin
Trenk DiPasqualc, P.C.
427 Rivervicw Plaza
Trenton, NJ 08611

Isabella Stempler, Esquire
Office of the Attorney General
P.O.Box 080
Trenton, NX08625

I hereby certify that the foregoing statements made by me are true. 1 am aware that should any of
the foregoing be willfully false, I am-subject to' punishment This document is filed in good faith.
DATED: Friday, September 8,2018.

Lw
Lynn Smith

25

Case: 19-1945
Case 17-34862-MBK

Document: 45-1

Page: 26

Date Filed: 02/07/2020

Doc 284 Filed 09/07/18 Entered 10/01/18 10:49:36
Document
Page 2 of 129

Desc Main

Lynn Smith
409 St. Clair Avenue
Spring Lake, New Jersey 07762
(848)469-8485
lzsmith@optonline.net

September 8,2018
Honorable Michael B. Kaplan
United States Bankruptcy Court
Clarkson S. Fisher US Courthouse
402 East State Street
Trenton, NJ 08608
Re: Reply Brief to State of New Jersey Opposition to August 8. 2018 Motion Regarding
Nature and Validity of Its Claim of $809.000
Dear Judge Kaplan:
The attached Exhibit 1 provides a reason why the State of New Jersey does not want this
motion to pass, nor will it like my suggestion of an October 1,2018 hearing regarding what 1 suggest
to the court that they submit as responses to the two questionnaires on September 17,2018.
From Exhibit 1 1 submit die following in the body of this brief. Although the apparent context
is mixed with that of the motion for the reverse mortgage, they are both related:
1.

IOiaO *

Damages, and
2. PTBe Stateidoes not want to nslc my-bemg able to receive $65^000'for legal representation.
State of New Jersey Knows It has No Valid Claim
innheiriOpposiRon to my-metioh reqUestin^tHaEtlie^tafeVoflsii^Jereey prove itHatvtHeif
IT) __ at _ ^ asea..... .................
_ m va
IpanehtSiSrlgtQck^alesiiiSfiinyesto^irii
ce
DlgitaEGas.itlies(atc;nof;:6hl\'2ayoidedjheiopporturiity.Jthevimisrepresentcd:tHe}iiitcnti6f,rny^motioii
to the court?

following:

2

26

Case: 19-1945

Document: 45-1

Page: 27

Date Filed: 02/07/2020

Case 17-34862-MBK DOC 284 Filed 09/07/18 Entered 10/01/18 10:49:36 Desc Main
Document Page 3 of 129
In her motion, the Debtor requests that Your Honor vacate
the Final Judgment and seeks to compel the Bureau to provide the
evidence supporting Final Judgment, Debtor's Brief at 2. This
motion must be denied because Debtor is inappropriately
attempting to re-litigate the Final Judgment.
Ms. Stempler chose a defense that she knew Your Honor had to agree with if you never read
my motion. She Knows ' Your Honor stated numerous times last fall and this spring that you can’t
have jurisdiction to I
Is.
rOI

never u:sedthe words FINAL JUDGMENT in my motion.]
Furthermore::
iTHeword FINAL ishotiiTihymotioh.
Furthermore:
Ttie word JUDCiMlfNf is not in my motion
It appears that Ms. Stempler is following the Trustee’s lead and is saying anything to you
relying on the fact that you will rule against me regardless of the facts
■What l asked Your Honor to tlo is to review tlieir responses to the questionnaire and when
ini

IGas private placement or placernent totalihg S?09,0Q0 ever went into my account on whatever liif
they used to construct theTIhe, that you would expunge if I may have used the word vacate but
allowing for the stupidity ofa pro se litigant not having an attorney to use expunge, rather than vacate,
the effect is the same. In the absence of state evidence that their $809,000 has a basis in reality, and
the cl aim or eliminate it entirely;
On Monday at 5 pm I am being evicted from my home. If the state had supplied the list when
I requested it on August 8th, I would he in Chapter 13 and my children Who have not been made aware
that we must leave the home on Monday and have had to suffer die life altering scars imposed. Ms.1
Pi&JlilMliMPSPWfYt HSfiSft c’&urt that one of the To-cSIlcd
investors I defrauded is tied to the criminals who defrauded the Community State Bank of Ankeny^
Iowa:
pile further insulftoY'lur Honor’s mtelligenceandinhreat to your reputaiidn thatyoudo not
make life-alfering rulihgs without doing a full and cdhiplete~dueYfiligerice (in this case a verificati6a
3

27

Case: 19-1945
Case 17-34862-MBK

Document: 45-1

Page: 28

Date Filed: 02/07/2020

Doc 284 Filed 09/07/18 Entered 10/01/18 10:49:36
Document
Page 4 of 129

Desc Main

that die staters claim is valitTantl not based on a false representation to them by criminals who robbed
a Federal bank, is these two additionalfacts to consider:
1. Apart from the fact that the man was tied to the group of criminals, he never mv<

11:

DiglSrGas, and
2. [The paperwork supportihg their claim was a forgery hy the DAG and his investigators].
Of course, there is paperwork to support the above claims — that is why Ms. Stempler has used
misdirection, aTorm of mysticism, to get you to Believe my motion was to have you vacate the Final]
Judgment of state court, ratherthan to do what has been asked of you now for over 1 -year, use your
(judicial discretion to investigate the nature and validity of the claim itself. Ybu have jurisdictibn to
rdo this. We have asked you to take up tRisrespohsibflity to avoid a manifest in justice to our children,
The evidence will be presented to another court because I cannot trust that Your Honor will
fairly, honestly and without prejudgment weigh the facts and evidence and expunge the state claim,
thus returning my house to my children and me. (Ybu 'believeTwronged you when 1 filed Chapter 1T.
That is not the case.Tknew yduhad hot ddne from September through DecemberlT. 20T8 what 1
have tried tdhaveyou^doTiere-pirttheircTaimrnof the final judgment.tolhelest. There is one thing
Your Honor can do to change my mind and cause me to spend $1,000 from my next pay check for an
attorney to prove to you that their claim is invalid:
[Because Isabella Stempler’s August 29th opposition to my August 8th motion was completely
unresponsive, arid:
p~ since 1 never asked you to change the state final judgment,;
27 since 1 did not use the word ^finaT*'
37 since 1 did not use Are word “judgment”
Yjour Honor should order Ms. Stempler to fill ou t the two forms with the names of the so-called
Digital Gas investors and deliver the completed documents to the court witha copy to me oh or by
{September 14.2018.1 wall file my response on or by September 2 T! which will givc'her 7-days until
September 28* to reply to my response and have that matter hear on October Is1 as well.
As 1 said in my motion, just fill out the two forms and submit to the court:
Your Honor does not require dozens of pages from them, ad hominins or their opinion.

4

28

Case: 19-1945

Document: 45-1

Page: 29

Date Filed: 02/07/2020

Case 17-34862-MBK Doc 284 Filed 09/07/18 Entered 10/01/18 10:49:36 Desc Main
Document Page 5 of 129
jWilh just thtemames on botliffirnis,^ letter b«^

exhibitswimae'filed an your court

be;
If you truly want to be fair and removed the appearance of bias and impropriety, you will
older the above today.
Andrea Dobin Is Not Very Bright When Threatened and The Opposition She Filed Threatens Your
Honor and the Reputation of the U.S. Bankruptcy Court in Trenton. New Jersey Since She Seems
to Support the Position that Restitution to My Alleged Victims is Not Needed and You Appear to
Agree
The above statement regarding the reputation of this Court could not be more evident than
in Andrea Dobin’s responses to having to recall the two retention motions and to being identified
as a peijurer. Shortly after that my husband and 1 advised Your Honor that her behavior could hurt
you and your standing as a judge. How there is a worse mistake than those attacks against me.
Consider this statement that she made in her opposition motion which managed to convince
Your Honor to reject the reverse mortgage thatl arranged to pay $400,000 at the first stage and a
further $ 1+million at a second stage, if I receive an adverse ruling ordering me to pay the disputed
claims.
A refinance is impossible without the State’s consent to allow the refinance to proceed
without payment of its judgment. Without that consent, the States’ $800,000 judgment of record
will prevent the consummation of the refinance.
My response is very simple and can be relayed to Your Honor in a question and a comment:
1. (W
A sale ofiS985I0Q0 less Andrea Dobm’s SlSO'OOOaFees does not pay the State’
Giving $400,000 to the bank and undisputed creditors leaves me with
funds for an attorney, for my children’s education, $35,000 to repair the
house and increase its value - and most of all - a house that 1 still own
and which Andrea Dobin controls and can sell for $1.85 million after
the District Court examines the nature and validity of the state’s. Ms.
Knowlton’s and the IRS claims

5

29

Case: 19-1945

Document: 45-1

Page: 30

Date Filed: 02/07/2020

Case 17-34862-MBK Doc 284 Filed 09/07/18 Entered 10/01/1810:49:36 Desc Main
Document

Page 6 of 129

■aid tha'
2. fhavc.
tci
s]
jetaim’a»feivali3atM;.byA]iligj3^tnct^ourt}^»tfe^a7^t3ha^:bc5en:ifil«t
precisely forTthaTpurpose. I have.suggestcd that on5c th~e $400.0D01sl
Court decision.1
ii:

gun‘ently|at|$i:85:tninionland^heiistate jcanvtake ^09,000 ;plu§;jl-yeail
ofJntefcsf.
IfTwin.T go to ChaptcrT3.
This offer is already on the table. Andrea Dobin knows this, Isabella Stempler knows this
and, most of all. Your Honor knew this the day I filed my motion. To wit:

Lynn Smith
409 St. Clair Avenue
Spring Lake, New Jersey 07762
(848) 469-8485
lzsmith@optonlinc.net

September 5,2018
Honorable Michael B. Kaplan
United States Bankruptcy Court
Clarkson S. Fisher US Courthouse
402 East Slate Street
Trenton, NJ 08608
Re: Emergent Motion to Permit Closing of Reverse Mortgage
Dear Judge Kaplan:
The funding source has been identified and committed in wiling that lie can close the
transaction in the short term
Benefit to State of New Jersey & Ms, Knowlton
The main material change benefits the major contested creditors, such as the State of New
Jersey and Carol Knowlton who are seeking at or around $1 million. If Your Honor speaks to
Andrea Dobin and agrees to support this way of increasing the cash value of the estate, there will
be enough cash in the estate to pay all creditors to have the possibility ofbeing paid off, possibly
in full. She appears to have told Matt that she might be willing to let this transaction close.

6

30

Case: 19-1945
Case 17-34862-MBK

Document: 45-1

Page: 31

Date Filed: 02/07/2020

Doc 284 Filed 09/07/18 Entered 10/01/18 10:49:36
Document
Page 7 of 129

Desc Main

Yet Your Honor denied my motion.
Why? is it because it provides me with funds for an attorney?
If Your Honor orders the reverse mortgage, the creditors benefit.
Andrea Dobin might be a little embarrassed and frustrated.
(The onfy person wno stands to lose, perhaps as much as S300,000. is the creep from
Lakewood who preys on ttiecitizeris of'fhc state oTNew Jersey. Uo you really care about "this
man?.
mded o!

/Wlf

Ms. Dobin made a ridiculous argument that;
1. Supports my motion;
2. Places into question why Ms. Stempler is not agreeing to the reverse mortgage;
3. Places into question why Your Honor would not want the extra SI million;
4. Places into question theobjectives ot this-CburtTirc.is this~abouf maximizing
cash tor creditors or, like the 12-year history of C-316-06 and F-40519-09:

DENY THE SMITHS LEGAL FUNDS AT ANY COST
I will repeat her main argument:
A refinance is impossible without the State’s consent to allow the refinance to proceed
without payment of its judgment. Without that consent, the States’ $800,000 judgment of record
will prevent the consummation of the refinance.
IFseems like Andrea Dobin and Isabella" Stempler have forgotten whatthe~SSOO^i30Q
judgment was ton
RESTITUTION
The^ S985>600 - 150,000 - $835,000 does not fulfill the purpose of the, final order and
judgment in C-316-Qg which is to paY back the S809I000 tb thc~alleged victims of my actions in
C-STfPOS.The purpose ofthe order and judgment against mew¥s:

.7

31

Case: 19-1945
Case 17-34862-MBK

Document: 45-1

Page: 32

Date Filed: 02/07/2020

Doc 284 Filed 09/07/18 Entered 10/01/18 10:49:36, Desc Main
Document
Page 8 of 129

DISGORGEMENT
Scl let’s disgorge by the best way possible 'at this point: My Reverse Mortgage Plan!
According to Matthew, all ifneeds is Ah'drea's agreement aricllie quotedlier as saying that it was
indei

What is stopping it?
T respectfully suggest that Your Honor can resolve all these problems and take care of valid
creditors most expeditiously by taking this course:
1. Speak to Andrea Dobin
2. She agrees
3. Your Honor orders it
If everyone can’t seem to decide whether to position the State of New Jersey to take in
$809,000 plus 9-years of interest, perhaps the new Attorney General and the Governor should add
their thoughts?
Closing Statement
prantingthls motion is' in the best interesfbFaUcreditors with validclaims.
Granting this motion is not lnthe best interest of all creditors with mvalifl'claims.
If Your Honor want justice tdrlOl families alter 12-years, grant this motion
IT Your Honor wants to continue concealing the truth, deny this motion.
If the State of New Jersey does not like these prospects then the new Attorney General and
the Governor should accept our offer to join hands and go after the criminals who destroyed 200
families and mine, including raping the minds and emotions of my two children with this move on
Monday:
Read Exhibit 2 carefully over the weekend.
This will be copied to the Governor, the Attorney General, the Legislature, the Attorney
General of the United States and Judicial Watch.
Respectfully,

2-. Svwu'h8

32

Case: 19-1945

Document: 45-1

Page: 33

Date Filed: 02/07/2020

NOTE:
All the State Had to Do Was Name the Victim, His Address, the Amount He
Invested and the Date. Their Refusal to Name the Investor Whose Investment
in Digital Gas I “Unjustly Enriched” Myself from Led to The Sale of My
House Several Weeks Later and The Waste of Going on Two Years of Federal
Court Time and Resources and Taxpayer Moneys.
After the State refused to supply the documents or information that the
United States Congress said they are obligated to turn over to the Bankruptcy
Court when a debtor alleges that a false or fraudulent claim was Bled against
an estate, I did the following:
Named the “Alleged Victim”: Alfred Kryspin;
Provided the Trial Transcript of the DAG who named Kryspin as Being
Owed $800,000;
Provided the Trial Transcript of Alfred Kryspin who Swore Under Oath
That He Had Never Invested In Digital Gas;
Provided the Trial Transcript that Proved the DAG Forged the Title of
Kryspin’s Investment History;
Provided the Trial Transcript Where Kryspin Indicated That He Only
Heard of Digital Gas 18-Months After His Investment of $400,000 in a
Different Company;
Provided the Trial Transcript Where the DAG Indicated His Source of
Information Concerning Kryspin Came From A Man Named Ron
Reckinger - Reckinger Was An Associate of Rumeal Robinson Who Along
With Reckinger and Others Defrauded A Federal Bank:
https://www.espn.com/mens-college-basketball/news/storv?id=5548218. Note
this paragraph in the article:
“When it became obvious the Jamaica deal would fail, Robinson and Williams
became involved in an energy project with a company called Fairway
Energy. Williams loaned $495,000 to the company in exchange for a
promise of a payment of that same amount to Williams. Another $101,000
loan was made by Williams in connection with the energy company.”
Remember the names Reckinger and Fairway Energy.
33

Case: 19-1945

Document: 45-1

Page: 34

Date Filed: 02/07/2020

Andrea Dobin Lowers Value of Estate for Network
Contact
Not only does the above presentation show that Judge Kaplan fraudulently altered
the docket and concealed the motion and its information (that should have led him to grant
the August 8, 2018 motion) from the public for almost a month, — but Trustee Andrea
Dobin did the same.
I am now going to make the argument that Judge Kaplan and Andrea Dobin ignored
federal law and defrauded my estate to deliver a $1 million profit to:

Eli Haltovsky
...a person in Dobin’s network money laundering thieves that prey on innocent New
Jerseyans.
Worse than the above is that there was absolutely no thought to increase the cash
value of the estate to $1.75 million in order to have the extra money needed to pay the
person whose money I “unjustly enriched myself’ with.
Andrea Dobin refused to permit me to bring $675,000 in cash to pay all uncontested
creditors for one reason:
The State of New Jersey Would Not Permit It
My Offer to Bring $675,000 of non-debt funds into my estate to pay all righteous
creditors came with the proviso that once everyone was paid other than the State of New
Jersey, I would be permitted a stay to file a complaint in federal court to establish that the
$809,237 claim of the state was false and that it needed to be significantly lowered to
protect my estate.
--------------If I were proven right, I would go to Chapter 11 or Chapter 13.
If I were proven wrong, I would move out of my home and it would be sold in an
orderly fashion for a minimum of $ 1.75 million. It is now worth $2.1 million.

34

Case: 19-1945

Document: 45-1

Page: 35

Date Filed: 02/07/2020

The state should have embraced this plan since Alfred Kryspin, the person whose
$809,237 I unjustly enriched myself with, would get his money back.
Why did the state not agree to this?
The answer is quite simple, the DAG perjured himself by claiming that I “unjustly
enriched” myself with Alfred Kryspin’s $809,237 investment in Digital Gas.
Kryspin never made an investment in Digital Gas.
The DAG received that notion from Ron Reckinger who was in the process of
stealing a $5 billion asset that Digital Gas had an option on.
Later on, when Ron Reckinger’s partner, Rumeal Robinson, was indicted along
with the bank manager that Reckinger, Robinson, and others bribed with $100,000, the
Office of the Attorney General was embarrassed and feared a massive damage suit for
having believed this ridiculous story that Attorney General Rabner did not have the time
to confirm with the proper due diligence.
My home was raided on October 11, 2006. Remember that date.
We will get back to Reckinger and Robinson in a later section of this exhibit
because the State’s claim that I unjustly enriched myself was provided to their DAG by
Reckinger.

Closing of Section
In closing this section on Andrea Dobin, it is noted that she indicated on November
1, 2018, that the sale had been consummated. The date that occurred was on October 30,
2018. The final point is that 22-days after the sale was “consummated” Dobin had
Haltovsky make an approximate $123,000 payment directly to the IRS. A sale in this
serious situation should have been consummated with full payment. Apparently, Dobin
was in a rush to announce a sale.
We see in Exhibit 2 why she rushed the sale.
We see in Exhibit 3 additional insight.
We see in Exhibit 4 additional insight.
35

Case: 19-1945

Document: 45-1

Page: 36

Date Filed: 02/07/2020

Judge Thompson still believed out of incompetence or incapacity:
1. I had no reasonable chance of “success” even though in August 2018 a
guaranteed non-debt cash offer of $679,000 was presented to the Bankruptcy
Court and the District Court;
2. That I was seeking to overturn a state court Final Judgment, rather than seek a
false claim to be investigated to reduce its amount which had already been
proven too high by $809,237.
3. That there was no legal difference of opinion on the August 8, 2018 Motion*
even though Judge Kaplan fraudulently noted on the docket a label for the
motion that suggested I was seeking to overturn a state court final judgment, as
opposed to seeking the relief afforded by Congress to question false claims and
have them investigated and reduced accordingly if the evidence supported it;
and
4. She could do nothing based on this Court’s December 17, 2018 opinion which
I critiqued in a 100-page rebuttal that proved no one in this Court, including the
clerks, did anything but summarized the false and misleading papers submitted
by the State of New Jersey, desperate not to be responsible, criminally
responsible for $600 million and the return of $5 billion of assets stolen by Ron
Reckinger and his partners.
The Bankruptcy Court, the District Court and the judges of the U.S. Court of
Appeals, Third Circuit All Are Well Aware of the Fraudulent Concealment, Better
Criminal Concealment of the Office of the Attorney General of the State of New
Jersey are guilty of 18 U.S.C. § 152(4) since the commencement of my petition and
have been doing the same for the last 14-years. DAG Stempler should be reported to
the appropriate authorities as a start since with this document you have even more
compelling evidence that the $809,237 claim against me needs to be lowered to
ZERO.
We ended a section several pages back with the following:
36

Case: 19-1945

Document: 45-1

Page: 37

Date Filed: 02/07/2020

My home was raided on October 11,2006. Remember that date.
We will get back to Reckinger and Robinson because this claim that I unjustly
enriched myself was provided to the State’s DAG by Reckinger.
1 will add another date: September 29,2006.
That is the day Brian Smith told a director of the Community State Bank in Ankeny,
Iowa that he would not dishonor the investors of Digital Gas and destroy their investment
value by freeing up the 3+ million shares of worthless stock that was used as collateral by
Ron Reckinger, Rumeal Robinson and others in securing up to $ 1.5 million in fraudulent
loans.
Exhibit 2 is the October 22, 2018 Emergent Motion that once again provided the
trustee and the judge with reason to investigate and reduce the amount of the $809,237
claim by the state.
That is why Dobin “sold” the property “quick” on October 30th and can back a
week later and once again reply that I was attempting to relitigate a state court Final
Judgment. She added that the matter was moot anyway, since she had “sold” the property,
albeit for who knows how much money. There is no better example of lunacy and
criminality than this woman’s declaring the property sold when she did not have the
purchase price in hand.
It only gets worse.
What Happened On October 11,2006?
My home was raided and my financial and other records, including 2005
and 2006 tax information, receipts et cetera was taken from my home and never
returned.
This also occurred:
Ron Reckinger took control of Fairway Energy.

37

Case: 19-1945
Case 17-34862-MBK

Document: 45-1
Doc 335

Page: 38

Date Filed: 02/07/2020

Filed 10/22/18 Entered 10/23/18 13:25:42
Document
Page 5 of 6

AFFIDAVIT FOR S. THOMAS THRONE

COMBS NOW, S. Thomas Throne, after being duly sworn and upon his oath slates and
alleges as follows:
L
This Affidavit is written as a supplement my prior affidavits in the New Energy
bankruptcy case.
2.

Since my last affidavit in this ease several events have transpired.

3.
Barry Levinson suffered some health issues and his partner, Ron Rcckingcr, has
taken over securing the funding.

Now, Let’s See Who Owns Fairway Energy:
Ron Reckinger owns 50%
Secretary of State
. ILSD: 06/26/2007
Original ID: 2005-000497786
Amendment 10: 2007-00062526

LIMITED LIABIUTYC

amendment to articles oforganization
Ricbc (307)777-7311/7312
Fb (307)777-5339
E-mitl.- K»pofititTO@sntt.wyAjs

UyosOgg Sccnmy of Sate
ThcC«pMBmUiii{,RoorollO
200W. 240) Street
Qxyumc. WYS2002-0020

The name ofdie limited liability company is:
Anide

VI

isemaxtedtifollotvs:

4

itA/AY At US"/teJ

AAft CM

■fit

it

n^inAti At A

of tit *

>*

A>1

$Oir/t l*'Yf*t**

So, let’s repeat what the FBI and the U.S. Attorney found:
“When it became obvious the Jamaica deal would fail,
Robinson and Williams became involved in an energy
project with a company called Fairway Energy. Williams
loaned $495,000 to the company in exchange for a promise
of a payment of that same amount to Williams. Another
$101,000 loan was made by Williams in connection with the
energy company.”
38

Desc Main

Case: 19-1945

Document: 45-1

Page: 39

Date Filed: 02/07/2020

The “energy project” was one of several assets stolen from 201 families by
criminals like Reckinger. The State knew this October 11,2006 and when it brought
Alfred Kryspin to the stand in February 2009.
“Williams” is the bank officer that Reckinger and Robinson gave $100,000 to
as a bribe for approving the loans. Unfortunately, the DAG did not prep the man’s
testimony well enough and he admitted under oath that he had no idea what Digital
Gas was until 18-months after he invested in another company.
“Reckinger” told the state DAG that I “unjustly enriched myself’ with
$809,237 of Alfred Kryspin’s money. He gave the DAG a list of the investments
made by Kryspin in an entirely different company.
The DAG removed the name of the company Kryspin invested in and inserted
the name “Digital Gas” - document fraud by a state official. It was a stupid felony
by the DAG.
We now know that Alfred Kryspin only heard about Digital Gas 18-months
after his investment.
We also know that the person who the State DAG relied on to determine that
I defrauded Alfred Kryspin of $809,237 — owned 50% of Fairway Energy, a
Wyoming Corporation which aided and abetted and benefitted from federal
bank fraud to the tune of almost $600,000.
Rumeal Robinson and the bank manager were arrested.
Ron Reckinger fled to Spain, then Germany before he was apprehended
by Interpol and was brought back to provide documentary evidence needed to
convict his partner and the bank manager of fraud.
According to the FBI and the U.S. Attorney General, Fairway Energy received
$596,000 from a loan at the Community State Bank in Des Moines, Iowa which was
secured by Digital Gas restricted shares.
Where Did Reckinger get the shares that he gave to Robinson to secure a total
of up to $1.5 million in loans?
39

Case: 19-1945

Document: 45-1

Page: 40

Date Filed: 02/07/2020

Well, the shares pledged to Community State Bank were 3,000,000+
restricted shares assigned to Levinson and two other associates that would have been
worth something if they had delivered a $95 million financing, but they did not so
the shares that were pledged to this federal bank were worthless
This above and the following sequence from the indictment of Robinson
shows the type of person Reckinger was.
So, Now We Know:
Why the State of New Jersey did not want to fill out the form I provided in
the August 8, 2018 Motion to Show Cause
Why the State did not want to name Alfred Kryspin as the person whose
investment in Digital Gas I “Unjustly Enriched Myself’ with.
More information ignored by the Dobin, Kaplan and Thompson:

RECEIVED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
UNITED STATES OF AMERICA,
Plaintiff,
v.
BRIAN JERMAINE WILLIAMS,
RUMEAL ROBINSON,
STEPHENIE HODGE,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

AUG 27 2009
SOUTHERN DISTRICT OF IOWA

CRIMINAL NO. 4:09-cr-131
INDICTMENT
18U.S.C. § 215
18 U.S.C. § 1014
18 U.S.C. § 1343
18 U.S.C. § 1344
18 U.S.C. § 1349

THE GRAND JURY CHARGES:
INTRODUCTORY ALLEGATIONS

40

Case: 19-1945

20.

Document: 45-1

Page: 41

Date Filed: 02/07/2020

On or about November 10,2005; defendant WILLIAMS entered an agreement

with Borrower C and Attorney A, whose identities are known to the Grand Jury. Borrower C and
Attorney A held themselves out as the Chief Executive Office* and Attorney, respectively, for a
company called Fairway Energy, LLC.

5
21.

The November 10,2005 agreement called for defendant WILLIAMS to authorize

a loan of $495,000 from Community State Bank to Fairway Energy, LLC. In exchange, Fairway
Energy would pay $495,000 to whomever defendant WILLIAMS wanted, the $495,000
payment to whomever defendant WILLIAMS wanted was separate and apart from the repayment
of the $495,000 loan plus interest and fees to Community State Bank.
22.

On or about November 16,2005, defendant WILLIAMS authorized a loan of

$495,000 from Community State Bank to Fairway Energy, LLC.
23.

On or about February 17,2006, defendant WILLIAMS sent an email to Borrower

C in which Defendant WILLIAMS instructed Borrower C to wire $241,249 to defendant
ROBINSON’s personal account at Community State Bank, $161,934 to Borrower B’s loan
account at Community State Bank, and the balance of $91,817 to defendant WILLIAMS’
personal account at Wells Fargo Bank. Collectively, these three amounts equal $495,000.
24.

Defendant WILLIAMS and defendant ROBINSON never received any payments

from Borrower C or Fairway Energy. On or about February 28,2006, defendant WILLIAMS
received an email from Borrower C stating, among other things: “This deal had to be slowed
down as we owe the underwriter $100,000 that we have been unable to pay... Ron has been
running ragged trying to find this $100,000 while I keep both deals moving.”

41

Case: 19-1945

25.

Document: 45-1

Page: 42

Date Filed: 02/07/2020

On March 1,2006, defendant WILLIAMS authorized a loan of $101,044 to

Borrower C. The loan proceeds were disbursed as follows:
*

$1,000 to Community State Bank for loan origination fees;

*

$44 for two overnight fees; and

*

$100,000 to an account in the name of “Windham Securities, Inc.” at North Fork
Bank, Brooklyn, New York.
6

The “Borrower” is Reckinger and his accomplices. Reckinger is the person that told the DAG I
defrauded Alfred Rryspin of $809,237 to focus the Attorney General on the company that he and others
were in the process of stripping of $5 billion in natural resource assets.

Manner and Means
5.

Nominee Borrower - Fairway Energy. It was a part of the conspiracy that

defendant WILLIAMS authorized a loan in the name of Borrower C with knowledge that the
proceeds of the loan would be used by Fairway Energy and repayment was expected to come
from Fairway Energy.
10.

Undisclosed Conflict of Interest - Lorn to Fairway Ener gy. It was a part of the

conspiracy that defendant WILLIAMS and defendant ROBINSON expected Fairway Energy to
compensate them, directly and indirectly, in exchange for defendant WILLIAMS’ authorization
of a $495,000 loan from Community State Bank to Fairway Energy.

10

November 16,
2005

Wachovia Bank (Fairway
Community State
Bank, Ankeny, Iowa Energy, LLC account)

$495,000

11

March 1,2006

North Fork Bank,
Community State
Bank, Ankeny, Iowa Brooklyn, New York
(Windham Securities, Inc.
account)

$100,000

42

Case: 19-1945

Document: 45-1

Page: 43

Date Filed: 02/07/2020

A TRUE BILL.

JsL

foreperson
Matthew G. Whitaker
United States Attorney
By:

/s/ Stephen H. Locher______
Stephen H. Locher
Assistant United States Attorney

43

Case: 19-1945

Document: 45-1

Page: 44

Date Filed: 02/07/2020

Closing
At all times since the first quarter of 2018 Andrea Dobin, Michael B.
Kaplan, Anne E. Thompson, and others were aware of the above facts.
At all times these and other facts, evidence and applicable law were
ignored in favor of formulaic chants for pro se litigants, such as:
The Rooker-Feldman Doctrine, which does not apply since I
demonstrated that I was not seeking to overturn a state court Final
Judgment but simply to have the trustee and the judge assume their
Congressionally-intended mandate to investigate and weed out false
and exceedingly high claims on my estate,
- In re Revel AC, Inc., 802 F.3d 558, 568 (3d Cir. 2015) where the court
opines that I have no reasonable chance of prevailing on the challenges
I raise or any clear and indisputable right to relief, and
- That I was not at the courthouse on January 2, 2018 to contest the
conversion, since Judge Kaplan and the judges of this Court had copies
of the police report of my two daughters being stalked and illicitly
contacted by a sexual predator, or
- That I did not contest the sale order to Judge Thompson because on
July 23, 2018 my husband and I complained to Judge Goodman that
Thompson was incapacitated and should not be handling our appeals or
complaints. We instead alleged criminality and have presented this
Court with sufficient evidence for it to presume at the very least that
there were improprieties, federal law-breaking, and criminality to send
this back to either Bankruptcy Court or District Court for total relief or
at the very least to vacate or reverse all orders and judgments that
removed my children and me from our home and damages us until the
present day. What more blatant example is question Dobin than to
hear a debtor claim that he is sleeping with the lawyer for Dobin
and the woman is telling him that Dobin acts unlawfully and
pressures her to do the same?
Federal crimes have been committed by the State of New Jersey. Judge
Kaplan, Judge Thompson and Andrea Dobin - all ignored the herein facts and
evidence which provided them with unimpeachable evidence that the $809,237
claim was based on the word of Ron Reckinger, a person the state’s DAG knew
to be a criminal, and the forgery of the financial records of the DAG.
44

Case: 19-1945

Document: 45-1

Page: 45

Date Filed: 02/07/2020

This document undermines the argument by their defense counsel that
Michael B. Kaplan and Anne E. Thompson acted judicially.
Depositions and discovery will prove that both Kaplan and Thompson knew
that I never “unjustly enriched myself’ and that the state’s $809,237 claim was
not only false but fraudulently obtained.
In fact, Attorney General Rabner received the following letter in a large
packet of exculpatory evidence that was also sent to the DAG.
Judge Kaplan knew this before I filed my Chapter 13.
Dobin knew this.
Thompson knew this.
When I claimed the $809,237 claim against my estate was false and needed
to be reduced, which is a right bestowed upon creditors to protect their estates, it
was not granted by these individuals for one reason:
They all chose to act outside of their respective “official” duties.
They abused their sacred offices and acted non-judicially.
To wit:

45

Case: 19-1945

Document: 45-1

Page: 46

Date Filed: 02/07/2020

Brian Smith
409 St, Clair Avenue
Spring lake. New Jersey 07762
(732) 927-0185

5pringlake@DptQnline.net

January 17,2067

Mr, Mark Degner
President and Chief Executive Officer
Community State Bank
817 N Ankeny Blvd, Ankeny, !A 50021
Dear Mr; Degner:
This fetter is to inform you that Digital Gas; concerned shareholder groups and 1 personally may
proceed against Community State Bank on several legal fronts, ineluding banking commission
and other regulatory complaints:
We want to avoid this. That is why you are receiving this letter and the attached. If you take
immediate, effective action to address certain matters that have devastated our company and its
shareholders, including Iowa citizens, the problems caused by your bank and its officers and
directors, represented by one or more of your loan officers, as well as your legal counsel, might be
interpreted in a different light
Right now, we view the bank and all ofthe above named connected with it* As aiders and abettors
of persons that have defrauded hundreds of people.
in feet, they recently caused your hank and its shareholders a significant loss of 5850,000. They
did this in such a slick and cynical manner as to now make those having oversight and
responsibility at the bank to either he seen as totaly inept or as facilitators, We know that one of
the two above is not true. In fact, we alerted your people to the fraud. In return, they either
believed them or found it expedient to aid and abet the defrauders. The negative effect bn our
company was the same.
Paradoxically, our firm was innocent in its dealings with your bank and, in fact, used its best
efforts to prevent your loss of $850,000. Unfortunately, your attorney and one or more loan
officers used extremely bad judgment. All of this is documentable.
Certain emails from your attorney and the person handling the Levinson et al loan clearly indica te
that they aided and abetted these people and did not do the proper due diligence on Levinson et
al after being warned.

46

Case: 19-1945

Document: 45-1

Page: 47

Date Filed: 02/07/2020

This caused damage to our company and its shareholders, it also hurt your bank and its
shareholders. The damage to our company is quite, substantial financial and otherwise. 1 advise
you not to ignore this letter. Please note that it is addressed to both you and the Board of
Directors.
I advise you to -review' all emails between Levinson et al, your loan officers and this outside
attorney, if you have not already. Do not think what happened is not known or caft be ignored. In
feet, you should have self-regulated ibis by now. If not, you have a narrow window to take the
appropriate action against these people.
If the lawyer that dealt with us contacts us cuddy or postures to us in any matter, I will fell free in
the public interest to take this letter and accompanying information and disseminate it to the
local and national media and all regulators in Iowa,
1 am absolutely livid regarding what occurred to our company and its shareholders. If you do not
act to make sure that Levinson et al never do this to a bank, investment bank or small private or
public company again, we will make sure that you have plenty of help In doing so.
Do not take this as a negative letter. It is certainly not like the mocking email sent by your counsel
. to outs after our company was needlessly devastated. Take this as a second chance.
Community State Bank was defrauded by Levinson et al acting in concert with one or more
persons from your bank that granted a loan on restricted stock in Digital Gas, The loss to the
bank and its shareholders of dose to $850,000 including penalties, fees and expenses, was pure
unmitigated fraud.
Instead of listening when advised thatwe were also defrauded by these people, your bank and its
officers and directors,’ represented by one or more of your loan officers, as well as your legal
counsel, "kicked in* with Levinson et al. Their thinking was presumptive, reckless and negligent,
I am forwarding some reference material for you to become acquainted with the activities of
Levinson et al. They:
•
•
«
«

damaged Digital Gas and its shareholders;
damaged your bank and its shareholders;
made a complete mockery of the Wyoming Federal Bankruptcy Court;
defrauded dozens of innocent creditors.

While you should have been paid interest and principal, reported by your lawyer never having
been paid, they took your money and went on a one year joy ride that hurt hundreds of people.
The last loan officer on this, who said something to the effect that we were a "criminal company"
and, your lawyer, believed whatever these defrauders told them. This resulted in disastrously
damaging afreets for Digital Gas and its shareholders.

2.

47

Case: 19-1945

Document: 45-1

Page: 48

Date Filed: 02/07/2020

The attached documents which were given to the Wyoming Federal Bankruptcy Court and the
State Bar in Wyoming will serve to advise you of their activities since July, 2005,
How badly your people misread their responsibility and through due diligence out the window
can be easily measured.
Two months prior to taking out the loan at your bank Levinson et al dragged their cronies and
others (they lied to and misled) into the Prosecutor and Bureau of Securities in New Jersey to
complain that the DIGG stock was fraudulent and worthless. This is of course the same stock that
he was able to run through your hank two months later as good collateral for a S600K loan.
The above alone should require a referral to the Iowa Attorney General for appropriate action.
After having read the attached documents, you will have a clearer understanding of the mistakes:
made by your employee(s) and attorney.
On one hand I feel sorry for Community State's shareholders.
On the other hand I feel sorry for Digital Gas shareholders.
I even feel sort)' for one or more ofyour officers or directors who were not kept informed of what,
surely some of you suspected at some point and several knew from tis.
Nevertheless, your loan officer(s) and lawyer did not act appropriately in this matter. In the end, 1
must protect Digital Gas shareholders:
Ether you dean it up,' of, as.I said, we will give you some help.
If I hear that you have referred this matter invol ving Levinson et al to your Attorney General by
Monday, it will go a long way toward convincing our damaged shareholders that the Community
State Bank is finally taking the appropriate action in this matter and should be seen as a victim as
well.
Right now you are viewed-as allowing the loan officer and lawyer to make one mistake after
another for the bank’s self interest with no real follow-up due diligence on Levinson et al after pur
warnings and no concern for collateral damage. Be advised that Digital Gas has sharehoiders in
Iowa.
If I do not hear the above from you by Monday that the above action against Levinson et al is
being taken, then it will be difficult not to immediately proceed against Community State Bank.
We will start with complaints regarding the improper loan and all subsequent events to all
applicable state and federal banking and securities authorities. That is not an ultimatum. It is
advisement. It is an expression of our prerogative.

3
48

Case: 19-1945

Document: 45-1

Page: 49

Date Filed: 02/07/2020

efficefs were acting on your behalf, .please secure and preserve all.J
email and other communication behveenthem and Levinson et eL'Oo the same with -the records
Of tbe bngirial coh tact 'tHat brought We loan into theihank;
If you agree.
Were wctuniaed. and We reeptot e; banlc: i| ’doing its ••
share to make certain that these people;never vietimize ahd misuse small companies, creditors,
bahks and law enforcKnent official^, then we can stand hack from proceeding.,
V

5

Sincerely,

firianSkith

4
49

Case: 19-1945

Document: 45-1

Page: 50

Date Filed: 02/07/2020

Fmftneinls
title: COMMUNITY STATE BANK NA VS FAIRWAY ENERGY LICET At.
Case: 05771 LACU033S7 (POLK)

EaM.

Snmmnrv

Due

•270.00

loo.oo

170.00

FINE

0.00

0.00

0.00

SURCHARGE

o.oo

o:oo

o.oo

RESTITUTION

0.00

0.00

0.00

'64533446

o!oo

645334.46

$645604.46

$100.00

$64550446

N/A

0.00

N/A

COSTS

OTHER

SUPPORT/AUMONY

Detail

FILING FEES, CHOP
NM

Juror/
Puree
BURKE THOMAS
HOWARD/
STATE OF IOWA

Orta
.
Amount

Obligor/
Obligee

.
Duto
Amount-----

Rfcrfel Tiuf

COMMUNITY STATE BANK

/

100.00

100.00 10/03/2006 S6S9S1 CHK

STATE OF IOWA

ATTORNEY FEES JUDGMENTS

LEVINSON BARRY H/
BURKE THOMAS
HOWARD

LEVINSON BARRY H/
COMMUNITY' STATE BANK

1733.83

0.00

JUDGMENTS

LEY’INSON BARRY 11/
BURKE THOMAS
HOWARD

LEVINSON BARRY W
COMMUNITY STATE BANK

107919.21

0.00

FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
REFUNDABLES DUE
THOMAS THORNE /
TO PREPAID EXPENSES
BURKE THOMAS
HOWARD

FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
THOMAS THORNE/
COMMUNITY STATE BANK

100.00

0.00

ATTORNEY FEES JUDGMENTS

FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
THOMAS THORNE /
BURKE THOMAS
HOWARD

FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
THOMAS THORNE /
COMMUNITY STATE BANK

8465.17

0.00

JUDGMENTS

FAIRWAY ENERGY
FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
LLC/BARRY LEVIN SON/S
THOMAS THORNE/ .
THOMAS THORNE/
BURKE THOMAS
COMMUNITY STATE BANK
HOWARD

527216.25

0.00

FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
THOMAS THORNE/
BURKE THOMAS HOWARD

35.00

0.00

FAIRWAY ENERGY
FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
LLC/BARRY LEVIN SON/S
REFUNDABLES DUE
THOMAS THORNE /
THOMAS THORNE/
TO PREPAID EXPENSES
BURKE THOMAS
BURKE THOMAS HOWARD
HOWARD

35.00

0.00

FAIRWAY ENERGY
LLC/BARRY LEVIN SON/S
REFUNDABLES DUE
THOMAS THORNE/
TO PREPAID EXPENSES
BURKE THOMAS
HOWARD

50

Case: 19-1945

Document: 45-1

Page: 51

Date Filed: 02/07/2020

These papers were filed by my husband in Judge Kaplan’s court in the falls
of 2017, as well as in my case.
Judge Kaplan also saw this document which shows that Levinson,
Reckinger engaged in some form of influence peddling or bribery of state officials
to have them go after an innocent public company and me.
Levinson had close tied to the Greenberg family from childhood and called
on Ace Greenberg’s daughter to bail him out of criminal charges. The filth of the
State and the DAG was such that after my husband forced them to admit that
Digital Gas had assets, they filed a motion to appoint Greenberg Traurig as the
company’s receiver - to make sure Reckinger’s, Levinson’s and their criminality
would never be disclosed:
Greenberg

u

(>

Traurig
LfluCdT.OeLMfc
Tel 873*43 ,J5<5
ftt B?a2*S,t»S
aifeieiaiesvwuam

April 24,2008
Via Federal Express
Hon. Thomas W. Cavanagh, P.J.Ch.
Monmouth County Courthouse
Hall of Records, 2nd Floor
1 East Main Street
Freehold, New Jersey 07728
Re:

Rabncr v. Digital Gas, et at
Docket No. MQN-C-316-06
__________
Plaintiffs Motionfor the Appointments/a Receiver
for Defendants Digital Gas Inc.
Return Date: April 25,2008
Dear Judge Cavanagh:
The return date for Plaintiffs Motion for the Appointment of a Receiver for Defendant
Digital Gas, Inc. (the "Motion") is scheduled for tomorrow, April 25, 2008. As the Court is
aware from the supporting Certification of Deputy Attorney General Christopher W. Gerold
dated April 9,2008, the New Jersey Bureau of Securities (the "Bureau") has requested that 1 be
appointed as the receiver of the estate of Digital Gas, Inc. 1 have briefly discussed the matter
with Deputy Attorney General Gerold and the Bureau, and am prepared and willing to serve in
this capacity.

•vUUSfi '
tOCAMTON
taooN

mamv.
WJ1AS'

ftXtlMJQKWir
HOUSTON

USHCAS
lONOONu»*ncnn
MUM

As the Court considers the Motion and my potential appointment, I wanted to bring id
the Court’s attention that Barry Levinson was represented by Jacqueline Greenberg Vogt, Esq.,
an attorney at this firm, in connection with Mr. Levinson's interview with the Bureau and the
United States Attorney. 1 understand that Mr. Levinson may be called as a witness, but is not a
defendant or relief party in this case. Accordingly, Ms. Vogt’s representation of Mr. Levinson
in those interviews should not constitute a disqualifying conflict. However, in the event that 1,
as receiver, identify claims against Mr. Levinson, f would retain separate conflicts counsel to
pursue such actions.
icctfully submitted,
Louis T. DeLucia
LTD/mrv
cc: Timothy P. Neumann, Esq. (viafacsimile andfederal express)
N4Z2
^0nvcJ’ General Christopher W. Gerold (viafacsimile andfederal express)

Owb**iTt»orij.UT | Anomty)at law| ftTOfcrtrAwiWtl >.0,Bit*677J Fiortim Part,NJ 07522-0677
tel $73360.79301 fax 9733013410

51

KVU,-

Orutot oxmtr
OUKOO

ffTOOC!

AACUMfNTQ
-tucoMwiirr
lAMf*
fWTO*
Tncfuccftm.
WKSMNCtOM, Bt,
WUTfAiM tUOl

www4jtUw.com

Case: 19-1945

Document: 45-1

Page: 52

Date Filed: 02/07/2020

The above is added information that demonstrates to Your Honor that no
clean judge would have denied my guaranteed offers to pay $455,000 and
$679,000 and refused my August 8th motion seeking documents related to the
State’s claim for $809,237 that I alleged to be false.
I have given Michael B. Kaplan and Anne E. Thompson to come clean.
A trial with depositions and discovery will disclose the nature and extent
of their non-judicial actions.
Sincerely,

Lynn Smith
DATED: February 7, 2020

52

Case: 19-1945

Document: 45-1

Page: 53

Date Filed: 02/07/2020

CERTIFICATE OF SERVICE
Lynn Smith, of full age, hereby certifies as follows:
1.1 am one of the parties in the above matter and on February 7, 2020,1 caused:
a) This motion requesting permission to file the attached:

Motion Requesting Permission to File An Overlength
Supplemental Petition for Rehearing and to Attach
Additional Exhibits to the Supplement
to my Petition for Rehearing En Banc, and
b) this Certification of Service to be served through ECF FILER.
I hereby certify that the foregoing statements made by me are true. I am aware that
should any of the foregoing be willfully false, I am subject to punishment.
Sincerely,

Lynn Smith
DATED: February 7, 2020

53

App. 2

Case: 19-1945

Document: 47

Page: 1

Date Filed: 02/13/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1945

IN RE: LYNN Z. SMITH, Appellant

(D.N.J. Civ. No. 3-18-cv-14955)

Before: SMITH, Chief Judge. McKEE, AMBRO, CI IAGARES, JORDAN,
HARDIMAN, GREENAWAY, Jr., SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY and PHIPPS, Circuit Judges

SUR PETITION FOR REHEARING
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
By the Court,
s/ Thomas L. Ambro, Circuit Judge
Dated: February 13, 2020
Sb/cc: Lynn Z. Smith
Aiidrea Dobin

■-.Li:.:

App. 3

Case: 19-1945

Document: 003113435683

Page: 1

Date Filed: 12/17/2019

October 31,2019

BLD-030

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-1945
IN RE: LYNN Z. SMITH, Appellant
(D.NJ. Civ. No. 3-18-CV-14955)
Present:

AMBRO, GREENAWAY, JR. and BIBAS, Circuit Judges
Submitted:

(1)

By the Clerk for possible dismissal due to a jurisdictional defect;

(2)

Appellant’s response thereto;

(3)

Appellant’s motion for leave to appeal jn forma pauperis (“EFP”); and

(4)

Appellant’s affidavit in support of her IFP motion
in the above-captioned case.
Respectfully,
Clerk
ORDER

Appellant’s motion for leave to proceed in forma pauperis is granted. However, we
hereby dismiss this appeal for lack of jurisdiction. Absent exceptions not at issue here,
our appellate jurisdiction in the bankruptcy context is limited to reviewing “final” orders
of the bankruptcy courts. See 28 U.S.C. § 158(d). We agree with the District Court that
the Bankruptcy Court order at issue in this case, which denied Appellant’s August 16,
2018 “Motion to Compel Discovery of Trustee Auction Process,” is not a “final” order.
See, e.g.. In re Energy Future Holdings Corn.. 904 F.3d 298, 308-09 (3d Cir. 2018).
iTJV

Case: 19-1945

Document: 003113435683

Page: 2

Date Filed: 12/17/2019

Nothing in our order here prevents Appellant from filing a new notice of appeal
following the Bankruptcy Court’s entry of a final order. We take no position on the
merits of such an appeal.
By the Court,
s/Thomas L. Ambro. Circuit Judge
Dated: December 17, 2019
Lmr/cc: Lynn Z. Smith
Andrea Dobin
A True Copyf0

ift'i*

tr
Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

